1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-6627
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
TRAVIS DEQUINCY CROFT,
Defendant-Appellant.
Appeal from the United States District Court
for the District of South Carolina at Greenville.
J. Michelle Childs, District Judge
(6:10-cv-00064-JMC1; 6:16-cv-00064-JMC)
Argued: December 10, 2020
Decided: January 29, 2021
Before MOTZ, THACKER, and QUATTLEBAUM,
Circuit Judges.
Affirmed by published opinion. Judge Quattlebaum
wrote the opinion, in which Judge Motz and Judge
Thacker joined.
ARGUED: Anwar Lord Graves, O’Melveny & Myers
LLP, Washington, DC, for Appellant. Kathleen
Michelle Stoughton, Office of the United States Attorney, Columbia, South Carolina, for Appellee.

2a
ON BRIEF: Shannon Barrett, David K. Roberts, Michael Rosenblatt, O’Melveny & Myers LLP, Washington, DC, for Appellant. Peter M. McCoy, Jr., United
States Attorney, Brook B. Andrews, Assistant United
States Attorney, Office of the United States Attorney,
Columbia, South Carolina, for Appellee.
QUATTLEBAUM, Circuit Judge:
The question here is whether a conviction under
South Carolina’s carjacking statute, S.C. Code § 16-31075, which prohibits taking or attempting to take a
motor vehicle “by force and violence or by intimidation
while the person is operating the vehicle or while the
person is in the vehicle,” is a violent felony predicate
under the Armed Career Criminal Act (“ACCA”). To
qualify as a violent felony, a predicate crime must
have as an element the use, attempted use or threatened use of physical force against another person. In
appealing the district court’s denial of his petition for
writ of habeas corpus under 28 U.S.C. § 2255, Travis
Croft claims that S.C. Code § 16-3-1075 does not.
Croft’s argument comes down to whether “intimidation,” as it is used in the carjacking statute, requires
the threat of physical force against the person in the
vehicle. Although South Carolina courts have not explicitly interpreted the carjacking statute, the state
has given us every indication that it meant “intimidation” in its carjacking statute to require the use, attempted use or threat of physical force against the
person in the vehicle. Therefore, we affirm the district court’s conclusion that South Carolina carjacking

3a
is a violent felony under the ACCA and affirm the denial of Croft’s petition.1
I.
We begin by recapping the events that led to
Croft’s sentence. In 2003, Croft pled guilty to carjacking in violation of S.C. Code § 16-3-1075 and was sentenced to thirty months in prison.2 Seven years later,
Croft pled guilty to the distribution of crack cocaine,
in violation of 21 U.S.C. § 841(a)(1), (b)(1)(C), and
felon in possession of a firearm, in violation of 18
U.S.C. §§ 922(g)(1), 924(a)(2), (e). At sentencing for
those charges, the government asserted that Croft
was an armed career criminal based on two prior convictions of distributing crack cocaine and the 2003
South Carolina carjacking conviction. The district
court agreed and sentenced Croft to 188 months in
prison, applying the ACCA’s fifteen-year minimum.
We affirmed Croft’s sentence enhancement as an
armed career criminal. See United States v. Croft, 533
F. App’x 187 (4th Cir. 2013).
During Croft’s imprisonment, the Supreme Court
held in Johnson v. United States, 576 U.S. 591, 597
(2015), that the ACCA’s residual clause was unconstitutionally vague. Soon after, it determined that its
holding in Johnson applied retroactively to cases on

Our task was made easier by the exemplary advocacy and briefing of both parties’ counsel.
2 The record does not contain the facts pertaining to this conviction as the relevant court destroyed the records pursuant to its
document retention policy. In any event, they would not assist
us in applying the categorical approach.
1

4a
collateral review. Welch v. United States, 136 S. Ct.
1257, 1268 (2016).
That same year, Croft filed a § 2255 motion to collaterally attack his sentence, arguing that Johnson
changed the substantive law of his conviction because
his South Carolina carjacking offense no longer qualified as a predicate offense under the ACCA. More
specifically, Croft argued that the South Carolina carjacking statute could only be a predicate offense under the ACCA’s residual clause, and, therefore, he no
longer had enough predicate offenses to be sentenced
as an armed career criminal. The government disagreed, arguing that the statute describes a violent felony under the ACCA’s force clause because it requires
the use, attempted use or threat of physical force
against another person.
The district court denied Croft’s motion to vacate
his sentence. It identified three predicate convictions:
two drug offenses, which Croft conceded were “serious
drug offenses” under the ACCA, and the carjacking
offense. 18 U.S.C. § 924(e)(2)(A). The district court
reasoned that, although South Carolina has no precedent directly on point, its carjacking statute was a violent felony under the ACCA’s force clause because it
shared the same intimidation element as South Carolina robbery, which we held was a violent felony in
United States v. Doctor, 842 F.3d 306, 309 (4th Cir.
2016). The district court concluded that Croft was not
sentenced under the ACCA’s residual clause and,
therefore, was not eligible for relief under Johnson. It
noted, however, that “It is not a settled point of law
that the South Carolina carjacking statute satisfies
the physical force requirement” of an ACCA violent

5a
felony predicate. J.A. 66. The district court thus
granted Croft a certificate of appealability on this specific question.
Croft filed two motions for reconsideration, which
the district court denied. He then timely appealed to
this Court, advancing the same arguments he pressed
below.
II.
To address Croft’s arguments on appeal, we first
describe the analytical framework for our inquiry before applying it to the South Carolina carjacking statute to determine whether the statute qualifies as a
violent felony predicate under the ACCA.3
A.
To qualify as a violent felony under the ACCA, a
predicate crime must “ha[ve] as an element the use,
attempted use, or threatened use of physical force
against the person of another.” Doctor, 842 F.3d at
308 (quoting 18 U.S.C. § 924(e)(2)(B)(i)). Physical
force “means violent force—that is, force capable of
causing physical pain or injury to another person.”
Johnson v. United States, 559 U.S. 133, 140 (2010).
Force that is sufficient “to overcome a victim’s physical resistance is inherently ‘violent.’” Stokeling v.
United States, 139 S. Ct. 544, 553 (2019).

In doing this analysis, we review de novo the district court’s
conclusions of law underlying denial of a § 2255 motion. See
United States v. Fulks, 683 F.3d 512, 516 (4th Cir. 2012).
Whether an offense constitutes a violent felony under the ACCA
is a question of law, and therefore we review it de novo. See
United States v. Cornette, 932 F.3d 204, 207 (4th Cir. 2019).

3

6a
Whether a state crime is classified as a violent felony predicate under the ACCA is determined by either the categorical or the modified categorical approach. See Descamps v. United States, 570 U.S. 254,
271-72 (2013). The categorical approach applies when
the statute has an indivisible set of elements, whereas
the modified categorical approach applies when the
statute is divisible. Id. Here, the parties agree that
we should apply the categorical approach. Based on
our precedent, we agree. See United States v. BurnsJohnson, 864 F.3d 313, 316 (4th Cir. 2017).
To apply the categorical approach, we review the
elements of the offense to determine the minimum
conduct necessary for a violation as defined by state
law, disregarding the particular facts underlying the
defendant’s conviction. Id. at 316. In that assessment, we must “rely on the interpretation of the offense rendered by the courts of the state in question.”
Id. (citing United States v. Winston, 850 F.3d 677, 684
(4th Cir. 2017)). Thus, South Carolina law controls
our inquiry here.
Additionally, in determining the “minimum conduct” required to obtain a conviction for a state crime,
we must ask whether there is “‘a realistic probability,
not a theoretical possibility,’ that a state would actually punish that conduct.” Doctor, 842 F.3d at 308
(quoting United States v. Gardner, 823 F.3d 793, 803
(4th Cir. 2016)). Therefore, we need not “conjure up
fanciful fact patterns in an attempt to find some nonviolent manner in which a crime can be committed.”
United States v. Salmons, 873 F.3d 446, 451 (4th Cir.
2017); see also Moncrieffe v. Holder, 133 S. Ct. 1678,
1684-85 (2013) (“[O]ur focus on the minimum conduct

7a
criminalized by the state statute is not an invitation
to apply ‘legal imagination’ to the state offense . . . .”)
(quoting Gonzales v. Duenas-Alvarez, 549 U.S. 183,
193 (2007)).
B.
South Carolina’s carjacking statute requires proof
that the defendant “(i) took, or attempted to take, a
motor vehicle from another person; (ii) by force and
violence or by intimidation; (iii) while the person was
operating the vehicle or while the person was in the
vehicle.” State v. Elders, 688 S.E.2d 857, 862 (S.C. Ct.
App. 2010) (citing S.C. Code Ann. § 16-3-1075(B)).
Under the categorical approach, the question becomes
whether “intimidation,” as it is used in S.C. Code § 163-1075, requires the use, attempted use or threat of
violent, physical force against the person in the vehicle. If it does not, then it is possible a person could be
convicted of carjacking in South Carolina without
committing a violent felony as defined in the ACCA.
As Croft properly notes, South Carolina courts
have not defined “intimidation” in the carjacking statute. Accordingly, Croft argues the plain, and thus
broader, meaning of “intimidation” applies. Using
that approach, he contends that “intimidation” includes non-violent threats and coercion. For example,
one could threaten a car owner with economic harm
in order to obtain the vehicle. Croft argues that example does not involve the threat of violence but still
violates the statute. Therefore, according to Croft, a
violation of the South Carolina carjacking statute is
not categorically a violent felony.

8a
We disagree. The statute’s text, surrounding
caselaw and the historical context of the statute’s passage all demonstrate that “intimidation” in the carjacking statute requires the threat of physical force
against the person in the vehicle. Croft’s reference to
other statutes in South Carolina and other state carjacking statutes does not save his argument. As all
roads led to Rome during its empire, here all roads
lead to the conclusion that S.C. Code § 16-3-1075 is
categorically a violent felony under the ACCA.
1.
We begin with the statute’s text. In order to commit carjacking, a defendant must take a motor vehicle from someone “while the person is in the vehicle.”
S.C. Code § 16-3-1075(B). This context narrows the
scope of “intimidation.” Wielding economic leverage
may be intimidation in other contexts, but it does not
make sense when taking a vehicle from a person who
is in it. Simply put, context matters, and Croft’s arguments are divorced from that statutory context.
Further, it is important to remember that our
analysis must not devolve into the use of “legal imagination” to develop “fanciful fact patterns” that violate
the statute without the threat of violence. Moncrieffe,
133 S. Ct. at 1685; Salmons, 873 F.3d at 451. Croft’s
arguments invite us to do just that. The examples
Croft conjures up may be theoretically possible. But
there is not a “realistic probability” they would occur.
Doctor, 842 F.3d at 308. Consistent with that principle, no South Carolina courts have affirmed carjacking convictions that do not involve violence or the
threat of violent force. Croft therefore cannot “point

9a
to . . . actual cases in order to demonstrate that a conviction for a seemingly violent state crime could in
fact be sustained for nonviolent conduct.” Salmons,
873 F.3d at 451. Although not determinative, this absence militates against Croft’s arguments.
2.
Croft claims the text of the carjacking statute supports his argument. According to Croft, by using “intimidation,” the South Carolina General Assembly intended the broader interpretation of that term found
in other statutes. Specifically, Croft points to the
criminal sexual conduct in the third degree, witness
intimidation and unlawful use of a telephone statutes. None of those examples are persuasive. The
criminal sexual conduct statute uses the word “coercion” rather than “intimidation,” so it does not tell us
anything about how the legislature meant to define
“intimidation” in carjacking. See S.C. Code § 16-3654(2).
And the witness intimidation statute considers
“intimidate” as the ends, not the means, of the criminal conduct. See S.C. Code § 16-9-340(A)(1) (prohibiting “by threat or force to intimidate or impede a judge,
magistrate, juror, witness, or potential juror . . .”)
(emphasis added). Thus, the statute explicitly contemplates using non-violent “threat[s]” as leverage for
the purpose of “intimidat[ing]” a judicial decisionmaker. Id. The use of “intimidate” in the unlawful
use of a telephone statute is similar. See S.C. Code
§ 16-17-430(A)(2) (prohibiting use of a telephone to
“threaten . . . with the intent to . . . intimidate”).
Those are wholly different uses than the carjacking
statute’s use of “intimidation,” which prohibits it as

10a
the means of taking a vehicle from a person while the
person is in it.
3.
Turning next to caselaw, while South Carolina
courts have not defined “intimidation” in the context
of the carjacking statute, they have in the context of
common-law robbery. In State v. Rosemond, the
South Carolina Supreme Court defined robbery as the
“felonious or unlawful taking of money, goods, or
other personal property of any value from the person
of another or in his presence by violence or by putting
such person in fear.” 589 S.E.2d 757, 758 (S.C. 2003).
It explained that a defendant therefore can commit
robbery by “violence” or by “intimidation.” Id. at 75859. In defining “intimidation” in the robbery context,
the South Carolina Supreme Court borrowed from
federal bank robbery law. Specifically, it explained,
“[w]hen determining whether the robbery was committed with intimidation, the trial court should determine whether an ordinary, reasonable person in the
victim’s position would feel a threat of bodily harm
from the perpetrator’s acts.” Id. at 759 (citing United
States v. Wagstaff, 865 F.2d 626 (4th Cir. 1989)) (emphasis added). In Wagstaff, this Court concluded that
“taking ‘by intimidation’ in the federal bank robbery
statute, 18 U.S.C. § 2113(a), required a threat of bodily harm. 865 F.2d at 627. The South Carolina Supreme Court thus imputed the federal bank robbery
statute’s definition of “intimidation” into its commonlaw robbery definition.
In fact, we reached that very conclusion in Doctor.
842 F.3d 306. This Court held that South Carolina
common-law robbery was a violent felony under the

11a
ACCA because “the South Carolina Supreme Court
modeled its definition of intimidation in robbery cases
after the one this Circuit uses in federal bank robbery
cases . . . .” Id. at 309. And because the Wagstaff definition of “intimidation” required “a threat of violent
force,” South Carolina robbery must categorically
qualify as a “violent felony” ACCA predicate. Id. at
310.
South Carolina’s definition of “intimidation” in
robbery provides compelling weight to our interpretation of “intimidation” in the carjacking statute because carjacking is a type of robbery. Apart from
whether carjacking is criminalized by statute, it is a
specific example of common-law robbery. See Jones v.
United States, 526 U.S. 227, 235 (1999) (noting that
“carjacking is a type of robbery”); 4 Wharton’s Criminal Law § 468 (15th ed.) (“A relatively modern variation of robbery is the offense of ‘carjacking.’”). In fact,
before carjacking statutes were enacted, carjacking
was prosecuted as robbery, and it still is in states that
lack a specific carjacking statute. See United States
v. Arnold, 126 F.3d 82, 92 (2d Cir. 1997) (Miner, J.,
dissenting) (collecting cases and discussing New York
state prosecutions of carjacking under its generalized
robbery statute); see also NAT’L CONFERENCE OF STATE
LEGISLATURES, AUTO THEFT & CARJACKING STATE
STATUTES (2008) (listing states without carjacking
statutes where such conduct “[m]ay be prosecuted under general robbery statute”). The elements of South
Carolina carjacking neatly overlap the more generalized elements of common-law robbery: (1) the taking
of personal property (a motor vehicle); (2) from the

12a
person of another or in his presence (a person in a vehicle); (3) by violence (force and violence) or by putting
such person in fear (intimidation). Compare Rosemond, 589 S.E.2d at 758, with Elders, 688 S.E.2d at
862. Carjacking in South Carolina can thus be characterized as a subset of robbery. We already know
that South Carolina defines the intimidation element
of common-law robbery as requiring a “threat of bodily harm.” Rosemond, 589 S.E.2d at 759. Because
carjacking is just one specific type of robbery, Rosemond provides strong evidence that South Carolina
would define “intimidation” the same way in its carjacking statute.
Croft tries to distinguish the carjacking statute
from common-law robbery, arguing that the South
Carolina General Assembly intentionally chose to use
different language in the carjacking statute. He
points to the legislature’s choice not to include the
phrase “putting such a person in fear” in the carjacking statute, while it is an element of common-law robbery. Croft argues this difference imparts an intent
to define “intimidation” differently in carjacking than
in common-law robbery. It is true that we presume
the legislature is aware of the common law, and a
choice to use a phrase not rooted in the common law
may be an indication that the legislature meant something different. See United States v. Drummond, 925
F.3d 681, 695-96 (4th Cir. 2019). But here, it is a distinction without a difference. Although in Rosemond
the South Carolina Supreme Court outlines the analogous intimidation element in common-law robbery
as “putting such person in fear,” South Carolina
courts have used “putting such person in fear” and

13a
“intimidation” interchangeably even before the legislature passed the carjacking statute. Rosemond, 589
S.E.2d at 758; see, e.g., State v. Hiott, 276 S.E.2d 163,
167 (S.C. 1981) (“The gravamen of a robbery charge is
a taking from the person or immediate presence of another by violence or intimidation.”); Young v. State,
192 S.E.2d 212, 214 (S.C. 1972) (“Robbery is larceny
from the person or immediate presence of another by
violence or intimidation.”). Because South Carolina
courts have used “intimidation” interchangeably with
“putting such person in fear,” the legislature’s choice
to use “intimidation” in the carjacking statute does
not indicate any desire to depart from the commonlaw definition.
4.
If the carjacking statute’s text and robbery
caselaw were not enough, the historical context of the
carjacking statute’s passage bolsters our interpretation of it, rather than the one Croft proffers. South
Carolina’s carjacking statute was modeled off the federal one. In fact, S.C. Code § 16-3-1075 borrows the
“by force and violence or by intimidation” phrase directly from the federal carjacking statute. See 18
U.S.C. § 2119. And the South Carolina statute was
enacted shortly after the federal one. See Anti Car
Theft Act of 1992, Pub. L. No. 102-519, 106 Stat. 3384
(1992); Act No. 163, 1993 S.C. Acts 529 (June 15,
1993). Federal courts have uniformly understood the
“by force and violence or by intimidation” phrase to
require the use, attempted use or threatened use of
physical force, and this Court has already interpreted
the federal carjacking statute in that manner. See
United States v. Evans, 848 F.3d 242, 246-47 (4th Cir.

14a
2017) (interpreting federal carjacking statute);
United States v. McNeal, 818 F.3d 141, 153 (4th Cir.
2016) (collecting cases interpreting the same phrase
in a variety of federal statutes).4 Although federal law
does not control our question here—South Carolina
law does—to the extent Croft argues the South Carolina legislature intended to depart from its understanding of “intimidation” in common-law robbery, it
seems that it intended to import the use of “intimidation” from the federal carjacking statute. Because we
have already held that “intimidation” in the federal
carjacking statute requires the use or threat of physical force, this theory does not help Croft.5
5.
In a final attempt to salvage the possibility of a
broad interpretation of “intimidation” in S.C. Code
§ 16-3-1075, Croft points to other state carjacking
statutes that have been interpreted to require merely
non-violent intimidation. But those cases ground

Croft emphasizes that 18 U.S.C. § 2119 contains a specific intent requirement to cause “death or serious bodily harm,” which
S.C. Code § 16-3-1075 lacks. But this Court in Evans did not
consider the intent requirement in reaching its interpretation.
848 F.3d at 246-47. The operative phrase, “by force and violence
or by intimidation,” has been consistently interpreted in federal
law the same way, regardless of whether a statute contains the
intent requirement. See McNeal, 818 F.3d at 153.
5 Croft points to United States v. Winston, 850 F.3d 677 (4th Cir.
2017), in response to this point. Winston makes clear that a federal interpretation does not control the interpretation of the
same language in a state law. 850 F.3d at 686. But it does not
instruct us to ignore federal law altogether when there is evidence that the state law was modeled off federal law.
4

15a
their interpretations on evidence from pattern jury instructions that define the intimidation element
broadly to encompass non-violent conduct.
See
United States v. Baldon, 956 F.3d 1115, 1124-25 (9th
Cir. 2020) (pointing to California’s pattern jury instructions that allowed a carjacking conviction based
upon intimidation of threatening a destruction of
property); Shropshire v. United States, 259 F. Supp.
3d 798, 804-05 (E.D. Tenn. 2017) (pointing to Tennessee’s pattern jury instructions which defined “intimidation” to include a broad understanding of coercion).
We lack similar evidence from South Carolina. There
is no evidence that South Carolina’s pattern jury instructions describe a broad understanding of the intimidation element in carjacking. Nor is there a single case from South Carolina where courts have applied the carjacking statute to conduct involving intimidation that lacked a threat of force against another person.
III.
No matter how we trace “intimidation” in S.C.
Code § 16-3-1075 back to discern the legislature’s intent, all roads lead to the same place—a requirement
of threatening physical force against the person in the
vehicle. S.C. Code § 16-3-1075 is thus a violent felony
predicate under the ACCA. Croft’s § 2255 motion to
vacate his sentence must therefore be denied. For the
reasons set forth above, the judgment below is
AFFIRMED.

16a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
GREENVILLE DIVISION
Travis Dequincy Croft,
Petitioner,
v.
United States of America,
Respondent.

)
)
)
)
)
)
)

Civil Action No.
6:10-cr-01090-JMC
ORDER AND
OPINION

The matter before the court is Petitioner Travis
Dequincy Croft’s Motion for Reconsideration. (ECF
No. 226.) Petitioner seeks to “reopen his motion to
vacate, set aside, or correct because the district court
failed to find if Petitioner’s South Carolina drug offense satisfies the requirements of a ‘controlled substance offense.’” (Id. at 1.) For the reasons set forth
herein, the court DENIES Petitioner’s Motion for Reconsideration (ECF No. 226).
I. FACTUAL AND PROCEDURAL BACKGROUND
On March 3, 2010, Petitioner was indicted for distribution of crack cocaine, possession of marijuana
with intent to distribute, being a felon in possession
of a firearm, and using a firearm in furtherance of a
drug trafficking crime. (ECF No. 2.) On February 22,
2011, Petitioner pled guilty to distributing crack cocaine and being a felon in possession of a firearm, in
violation of 21 U.S.C. §§ 841(a)(1), 841(b)(1)(C), and
18 U.S.C. §§ 922(g)(1), 924(a)(2), and 924(e). (ECF

17a
Nos. 35, 64.) The United States Probation Office prepared a Presentence Investigation Report (“PSR”)
(ECF No. 64), which stated that Petitioner was an
armed career criminal based on his three (3) prior
state convictions for distribution of crack cocaine.
(ECF No. 64 at ¶¶ 21, 27, 28, 52.)
On June 2, 2011, the court sentenced Petitioner to
one hundred eighty-eight (188) months of imprisonment in the United States Bureau of Prisons. (ECF
No. 82.) Petitioner appealed to the United States
Court of Appeals for the Fourth Circuit, which remanded the case to this court for resentencing. (ECF
Nos. 92, 109, 112.) On October 9, 2012, the court resentenced Petitioner to one hundred eighty-eight
(188) months of imprisonment. (ECF Nos. 153, 154.)
Petitioner appealed again to the Fourth Circuit,
which affirmed the district court’s decision. (ECF
Nos. 157, 169.)
On January 7, 2016, Petitioner, proceeding pro se,
filed a Motion to Vacate pursuant to 28 U.S.C. § 2255
(ECF No. 176) asserting that his sentence should not
have been enhanced under the Armed Career Offender Provision of the Residual Clause. (ECF No.
176-1.) The Government opposed and claimed that
carjacking is a predicate offense under the Armed Career Criminal Act (“ACCA”). (ECF No. 185.) On September 16, 2016, an amended PSR was filed. (ECF
No. 208.) On February 17, 2016, the Government
filed a Motion for Summary Judgment asserting that
the Section 2255 claim was without merit. (ECF No.
186.) On March 24, 2016, Petitioner responded in opposition. (ECF No. 193.) On August 11, 2018, the
court denied Petitioner’s Motion to Vacate, finding his

18a
prior carjacking conviction to be a violent felony.
(ECF No. 215.) On June 13, 2018, Petitioner filed a
Motion for Reconsideration of his Motion to Vacate
(ECF No. 224), which the court denied (ECF No. 225).
Petitioner filed another Motion for Reconsideration, requesting that the court reopen his Motion to
Vacate because the court allegedly failed to determine
whether his offense under South Carolina law satisfies the requirements of a “controlled substance offense.” (ECF No. 226.) The Government filed a response in opposition on January 1, 2019, arguing that
Petitioner has forfeited his right to appeal because he
did not raise the argument in his previous appeals.
(ECF No. 230.)
II. ANALYSIS
Petitioner asserts that the court must reconsider
his motion, pursuant to Fed. R. Civ. P. 60(b). Rule
60(b) provides:
On motion and just terms, the court
may relieve a party or its legal representative from a final judgment, order,
or proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or
excusable neglect;
(2) newly discovered evidence that, with
reasonable diligence, could not have
been discovered in time to move for a
new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or extrinsic), misrepresentation,
or misconduct by an opposing party;

19a
(4) the judgment is void
(5) the judgment has been satisfied, released, or discharged; it is based on an
earlier judgment that has been reversed
or vacated; or applying it prospectively
is no longer equitable; or
(6) any other reason that justifies relief.
Stated differently, Rule 60 does not authorize a
motion merely for reconsideration of a legal issue. See
United States v. Williams, 674 F.2d 310, 312 (4th Cir.
1982). A motion to reconsider “cannot appropriately
be granted where the moving party simply seeks to
have the [c]ourt rethink what [it] has already thought
through . . . .” United States v. Dickerson, 971 F.
Supp. 1023 (E.D. Va. 1997) (internal quotation marks
omitted). Defendant cites to United States v. Rhodes,
736 F. App’x 375, 378 (4th Cir. 2018) as authority that
prevents him from being subjected to the enhanced
sentencing provisions under 18 U.S.C. § 924(e)(1).
(ECF No. 226.) However, this is Petitioner’s second
Section 2255 motion, and successive filings are available only in limited circumstances because “courts
must not allow prisoners to circumvent them by attaching labels other than ‘successive application’ to
their pleadings.” United States v. Winestock, 340 F.3d
200, 203-4 (4th Cir. 2003) (citing Calderon v. Thompson, 523 U.S. 538, 553 (1998). Here, Petitioner has
failed to request pre-filing authorization from the
Fourth Circuit and for relief under Section 2255, and
therefore the court lacks jurisdiction.
Here, Petitioner requests that the court rule on his
supplemental motion regarding whether his three (3)

20a
prior state drug convictions are serious drug convictions under the ACCA. (ECF No. 201.) The record
shows that Petitioner did not include any claim regarding his prior drug convictions qualifying as predicate offenses under the ACCA (Id.), and that the
court denied Petitioner’s supplemental motion on
September 8, 2016. (ECF No. 206.) Petitioner seeks
reconsideration of issues that he has appealed, and
therefore, the court is without jurisdiction to address
his motion.
III. CONCLUSION
For the reasons stated above, the court DENIES
Petitioner’s Motion for Reconsideration pursuant to
Rule 60(b) (ECF No. 226).
IT IS SO ORDERED.
J. Michelle Childs
United States District Judge
October 15, 2019
Columbia, South Carolina

21a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
GREENVILLE DIVISION
Travis Dequincy Croft,
Petitioner,
v.
United States of America,
Respondent.

)
)
)
)
)
)
)

Criminal No.
6:10-cr-01090-JMC
ORDER AND
OPINION

This matter is before the court on Petitioner’s Motion for Reconsideration (ECF No. 224). Petitioner
seeks review of the court’s May 11, 2018 Order (ECF
No. 215), denying Petitioner’s Motion to Vacate under
28 U.S.C. § 2255 (ECF No 176) and denying as moot
the Government’s Motion for Summary Judgment
(ECF No. 186). For the reasons stated herein, the
court DENIES Petitioner’s Motion for Reconsideration.
I. FACTUAL AND PROCEDURAL BACKGROUND
The court adopts its prior recitation of the facts
from its May Order (ECF No. 186 at 1-2). On May 11,
2018, this court determined that Petitioner’s prior
state carjacking conviction qualified as a “violent felony” under the Armed Career Criminal Act (“ACCA”).
(ECF No. 186 at 6.) The court made this determination by applying the “categorical approach” in which
the court considered the elements of the offense and
the fact of conviction. (ECF No. 186 at 4-6.) The court

22a
concluded that both carjacking by means of violence
or by means of intimidation fulfilled the requirements
of the force clause of the criminal statute. (ECF No.
186 at 6.)
II. STANDARD OF REVIEW
Pursuant to Federal Rule of Civil Procedure 59(e),
a court may “alter or amend [a] judgment if the movant shows either (1) an intervening change in the
controlling law, (2) new evidence that was not available at trial, or (3) that there has been a clear error of
law or manifest injustice.” Robinson v. Wix Filtration
Corp., 599 F.3d 403, 412 (4th Cir. 2010) (citing Small
v. Hunt, 98 F.3d 789, 797 (4th Cir. 1996)). The moving
party has the burden to establish one of these three
grounds in order to obtain relief under Rule 59(e).
Loren Data Corp. v. GXS, Inc., 501 F. App’x 275, 285
(4th Cir. 2012). The decision whether to reconsider
an order pursuant to Rule 59(e) is within the discretion of the district court. See Hughes v. Bedsole, 48
F.3d 1376, 1382 (4th Cir. 1995). Importantly, “reconsideration of a judgment after its entry is an extraordinary remedy which should be used sparingly.” Pac.
Ins. Co. v. Am. Nat’l Fire Ins. Co., 148 F.3d 396, 403
(4th Cir. 1998) (citation omitted).
In addition, because Petitioner is a pro se litigant,
the court is required to interpret his documents liberally and will hold those documents to a less stringent
standard than those drafted by attorneys. See Gordon
v. Leeke, 574 F.2d 1147, 1151 (4th Cir. 1978); see also
Hardin v. United States, C/A No. 7:12-cv-0118-GRA,
2012 WL 3945314, at *1 (D.S.C. Sept. 10, 2012).

23a
III. DISCUSSION
In Petitioner’s Motion for Reconsideration1, he
urges the court to reconsider its decision to deny his
Motion to Vacate his sentence, claiming there has
been an intervening change in the controlling law
since he filed the Motion on January 11, 2016. Specifically, Petitioner claims that the United States Supreme Court’s decision in Mathis v. United States
warrants reconsideration of the court’s determination
in its May 11, 2018 Order. However, the United
States Supreme Court’s holding in that case that a
prior state criminal conviction will not qualify as a
predicate “violent felony” under the ACCA if an element of the crime of conviction is broader than an element of the generic offense does not change the law
applied in Petitioner’s case. See Mathis v. United
States, 136 S. Ct. 2243, 2251 (2016). In support of his
Motion, Petitioner asks this court to adopt the decision of the United States District Court for the Eastern District of Tennessee in Shropshire v. United
States. In that case, the court applied the holding in
Under Rule 59(e), a Motion for Reconsideration “must be filed
no later than 28 days after the entry of judgment.” Fed. R. Civ.
P. 59(e). The prison mailbox rule, established in Houston v.
Lack, allows a pro se litigant’s legal papers to be “considered filed
‘upon delivery to prison authorities, not receipt by the clerk.’”
United States v. McNeill, 523 F. App’x 979, 981 (4th Cir. 2013);
see also Amerson v. Stevenson, C/A No: 4:11-cv-03266-DCN,
2012 WL 2856516, at *2 (D.S.C. July 11, 2012). This court entered judgment on May 11, 2018, so Petitioner was required to
file his Motion by June 9, 2018. The prison mailbox rule is applicable in this case, and Petitioner delivered his Motion to
prison authorities on June 11, 2018. Notwithstanding the fact
that Petitioner’s Motion was untimely, the court considered his
Motion on the merits.

1

24a
Mathis and found that Tennessee’s carjacking statute
was overly broad and prevented the defendant’s prior
carjacking conviction from qualifying as a “violent felony” under the ACCA. Specifically, the court in
Shropshire determined that the Tennessee carjacking
statute “is overly broad because some conduct covered
by the criminal [carjacking] statute does not necessarily require the use of violent physical force.”
Shropshire v. United States, 259 F. Supp. 3d 798, 802
(E.D. Tenn. 2017). The court based this determination on the fact that carjacking by intimidation is “capable of commission without the use, attempted use,
or threatened use of force capable of causing physical
pain or injury.” Id. at 805.
However, this court refuses to adopt the Shropshire court’s determination because it is in direct contradiction to the mandatory law of this jurisdiction established by the United States Court of Appeals for
the Fourth Circuit in United States v. Doctor. The
Fourth Circuit, and this court by extension, has
adopted the view of the South Carolina Supreme
Court that “to constitute intimidation in South Carolina, a . . . victim must feel a threat of physical force
based on the defendant’s acts,” meaning that “a defendant intimidates a victim by threatening physical
force.” United States v. Doctor, 842 F.3d 306, 309 (4th
Cir. 2016). Therefore, the court rejects Petitioner’s request and reaffirms its previous determination that
Petitioner’s previous carjacking conviction serves as a
predicate offense under the ACCA.
IV. CONCLUSION
After careful consideration of Petitioner’s arguments and for the reasons set forth above, the court

25a
DENIES Petitioner’s Motion for Reconsideration.
(ECF No. 224.)
IT IS SO ORDERED.
J. Michelle Childs
United States District Judge
October 15, 2018
Columbia, South Carolina

26a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
GREENVILLE DIVISION
Travis Dequincy Croft,
Petitioner,
v.
United States of America,
Respondent.

)
)
)
)
)
)
)

Criminal Action
6:10-cr-01090-JMC
ORDER AND
OPINION

This matter is before the court on Petitioner’s Motion to Vacate under 28 U.S.C. § 2255. (ECF No. 176.)
Petitioner seeks relief from his sentence under United
States v. Johnson, 135 S. Ct. 2551 (2015). (See ECF
No. 176-1 at 7.) For the reasons stated below, the
court DENIES Petitioner’s Motion to Vacate under
28 U.S.C. § 2255 (ECF No. 176).
I. FACTUAL AND PROCEDURAL BACKGROUND
In 2010, Petitioner was indicted for distribution of
crack cocaine, being a felon in possession of a firearm,
and using and carrying a firearm in furtherance of a
drug trafficking crime. (ECF No. 2.) On February 22,
2011, Petitioner and the Government entered into a
plea agreement whereby Petitioner agreed to plead
guilty to the charges of distribution of crack cocaine
and being a felon in possession of a firearm. (ECF No.
35.) A Presentence Investigation Report (“PSR”) was
prepared by the U.S. Probation Office. (ECF No. 64.)
The PSR determined that Petitioner was an armed

27a
career criminal based on two (2) prior convictions for
distribution of crack cocaine and one (1) prior conviction for carjacking. (ECF No. 64 at ¶¶ 21, 27, 28, 52).
On June 2, 2011, the court sentenced Petitioner to 188
months of incarceration. (ECF No. 82.) Petitioner
filed an appeal which resulted in a remand for resentencing in order to allow Petitioner an opportunity to
allocute. (ECF Nos. 92, 109, 112.) On October 9,
2012, Petitioner was resentenced (ECF No. 153) and
his original sentence did not change (ECF No. 154).
Petitioner appealed his sentence, and his sentence
was affirmed by the United States Court of Appeals
for the Fourth Circuit. (ECF No. 157, 169.)
On January 7, 2016, Petitioner filed a pro se Motion to Vacate under 28 U.S.C. § 2255. (ECF No. 176.)
The Government responded (ECF No. 185), and Petitioner replied (ECF No. 197). On September 16, 2016,
an amended Presentence Investigation Report was
filed. (ECF No. 208.)
On February 17, 2016, the Government filed a Motion for Summary Judgment on Petitioner’s 28 U.S.C.
§ 2255 claim. (ECF No. 186.) Petitioner responded in
opposition on March 24, 2016. (ECF No. 193.)
II. LEGAL STANDARD
In order to move for relief under 28 U.S.C. § 2255,
Petitioner must plead that he was sentenced “(1) in
violation of the Constitution or laws of the United
States, (2) the court was without jurisdiction to impose such sentence, (3) that the sentence was in excess of the maximum authorized by law, or (4) that his
sentence is otherwise subject to collateral attack.” 28
U.S.C. § 2255(a).

28a
Pursuant to 28 U.S.C. § 2255(f), a petitioner has
one year from the time his or her conviction becomes
final to file a motion under this section, or one year
from “the date on which the right asserted was initially recognized by the United States Supreme
Court, if that right has been newly recognized by the
Supreme Court and made retroactively applicable to
cases on collateral review.” See 28 U.S.C. § 2255
(f)(1), (3).
Because Petitioner is a pro se litigant, the court is
required to liberally construe his arguments. Gordon
v. Leeke, 574 F.2d 1147, 1151 (4th Cir. 1978); see also
Haines v. Kerner, 404 U.S. 519, 520 (1972) (pro se
plaintiffs “inartful pleadings” may be sufficient
enough to provide the opportunity to offer supporting
evidence.)
III. ANALYSIS
Petitioner asserts that his sentence is in excess of
the maximum authorized by law because he does not
fall under the Armed Career Criminal Act (“ACCA”)
given the Supreme Court’s holding in Johnson. In
Johnson v. United States, the United States Supreme
Court held that the residual clause of the ACCA was
unconstitutionally vague in violation of the Due Process Clause of the Fifth Amendment to the United
States Constitution. 135 S. Ct. at 2563. The residual
clause defines a violent felony as “[crimes that involve] conduct that presents a serious potential risk
of physical injury to another.”
18 U.S.C.
§ 924(e)(2)(B). Johnson was decided on June 26,
2015, and presented a new right for defendants sentenced to the mandatory minimum sentence of fifteen

29a
(15) years based on the residual clause of the statutory definition of violent felony. In Welch v. United
States, the Supreme Court held that Johnson had a
retroactive effect in cases on collateral review. 136 S.
Ct. 1257, 1268 (2016).
In Johnson, the Supreme Court only ruled as to
the ambiguity of the residual clause within the statutory definition of violent felony under 18 U.S.C.
§ 924(e)(2)(B)(ii). Johnson, 135 S. Ct. at 2563. The
Supreme Court did not address the statutory definition of “serious drug offense”1 or call into question any
other part of the statutory definition of violent felony.
Id.
Petitioner’s three predicate convictions were two
(2) drug offenses and one (1) state carjacking conviction. Petitioner’s two prior drug convictions qualify
as “serious drug offenses;”2 however, Petitioner posits
that his carjacking conviction does not qualify as a “violent felony.”
A. South Carolina’s Crime of Carjacking Qualifies as a Violent Felony
The relevant portion of the ACCA defines a “violent felony” as “any crime punishable by imprisonment for a term exceeding one year” that “has as an
The term “serious drug offense” includes “an offense under
State law, involving manufacturing, distributing, or possessing
with intent to manufacture or distribute, a controlled substance
(as defined in section 102 of the Controlled Substances Act (21
U.S.C. 802)), for which a maximum term of imprisonment of ten
years or more is prescribed by law.” 18 U.S.C. § 924(e)(2)(A)(ii).
2 Petitioner concedes this in his Motion. (See ECF No. 176-1 at
4.)
1

30a
element the use, attempted use, or threatened use of
physical force against the person of another.”3 18
US.C. § 924(e)(2)(B)(i). The Fourth Circuit has expressed concern about offenses which require nothing
more than de minimis force satisfying the force clause
and held, “‘[p]hysical force’ for purposes of the force
clause does not include the ‘slightest offensive touching’ that might sustain a misdemeanor battery conviction under some state laws.” United States v.
Gardner, 823 F.3d 793, 803 (4th Cir. 2016). “Instead,
‘physical force’ within the context of the ACCA means
‘violent force—that is, force capable of causing physical pain or injury to another person.’” Id.
Carjacking meets the one-year imprisonment requirement because it is punishable by twenty years of
incarceration. S.C. Code Ann. § 16-3-1075 (2003).
To determine whether carjacking qualifies under
the force clause, the court applies the “categorical approach” in which the court only considers the elements of the offense and the fact of conviction. United
States v. Baxter, 642 F.3d 475, 476 (4th Cir. 2011) (citing United States v. White, 571 F.3d 365, 368 (4th
Cir.2009)). The court considers only the elements of

Violent felonies also include “any crime punishable by imprisonment for a term exceeding one year” that “is burglary, arson,
or extortion, involves use of explosives, or otherwise involves
conduct that presents a serious potential risk of physical injury
to another.” 18 U.S.C. § 924(e)(2)(B)(ii). The court will only address whether Petitioner’s conviction falls under the force clause
because carjacking is not an enumerated crime and the Supreme
Court deemed the clause concerning risk of physical injury unconstitutionally vague in Johnson.

3

31a
the state offense not the defendant’s conduct.4 Id.
The court looks to the “minimum conduct” required
for conviction. Gardner, 823 F.3d at 803 (quoting Castillo v. Holder, 776 F.3d 262, 267 (4th Cir. 2015)).
However, when considering the minimum conduct,
there must be a “realistic probability, not a theoretical
possibility,” that such conduct would be punished by
the state. Id. (quoting Moncrieffe v. Holder, 590 U.S.
184, 190 (2013)).
The court looks to state courts to define the elements of an offense and identify the minimum conduct necessary for a conviction. Id. Conviction for
carjacking in South Carolina requires proof that the
defendant: “(1) took, or attempted to take, a motor
vehicle from another person; (2) by force, violence, or
intimidation; (3) while the person was operating the
vehicle or while the person was in the vehicle.” State
v. Elders, 688 S.E.2d 857, 862 (2010) (interpreting
S.C. Code Ann. § 16-3-1075 (2003)). Carjacking may
be accomplished by violence or force or by means of
intimidation. Id. If either carjacking by means of violence or by means of intimidation fails to satisfy the
force clause definition, the crime is not a violent felony. See Gardner, 823 F.3d at 803. Carjacking by
force or violence involves “force capable of causing
physical pain or injury to another person.” Id. Therefore, carjacking by means of force or violence requires

Courts use the “modified categorical approach” for a narrow set
of cases under § 924(e)(2)(B)(ii) (the “enumerated clause”).
Descamps v. United States, 570 U.S. 254 (2013). Because carjacking is not enumerated in § 924(e)(2)(B)(ii), the modified categorical approach is not applicable.

4

32a
more than de minimis force and fulfills the force
clause.
The issue is whether carjacking by means of intimidation would fulfill the requirements of the force
clause. In United States v. Doctor, the Fourth Circuit
observed that “[a] review of South Carolina law reveals . . . that intimidation necessarily involves
threatened use of physical force.” 842 F.3d at 309 (4th
Cir. 2016). Robbery and carjacking are separate offenses. Doctor addressed intimidation in relation to
robbery; however, the observation of the Fourth Circuit in Doctor is instructive in this case because both
crimes contain intimidation as a potential method to
complete the crime. In South Carolina, robbery is defined as the “felonious or unlawful taking of money,
goods, or other personal property of any value from
the person of another or in his presence by violence or
by putting such person in fear.” State v. Rosemond,
589 S.E.2d 757, 758 (2003). A defendant can commit
robbery by alternative means of violence or intimidation. Id. at 758-59. Intimidation requires “an ordinary, reasonable person in the victim’s position [to]
feel a threat of bodily harm from the perpetrator’s
acts.” Id. (citing United States v. Wagstaff, 865 F.2d
626 (4th Cir.), cert. denied, 491 U.S. 907 (1989)). In
Doctor, South Carolina’s interpretation of intimidation for robbery fulfilled the “physical force” requirement described in Gardner and qualified robbery as a
predicate offense under the force clause. 842 F.3d at
312.
The elements of South Carolina’s crimes of carjacking and robbery are effectively the same. Carjacking simply specifies the goods and property taken

33a
from the victim. South Carolina courts’ interpretation of intimidation regarding robbery would likely
apply in carjacking cases. Gardner, 823 F.3d at 803.
Therefore, carjacking by means of intimidation satisfies the force clause.
Both carjacking by means of force or violence and
carjacking by means of intimidation exceed the physical force threshold in Gardner. Thus, the South Carolina crime of carjacking satisfies the force clause,
and Petitioner’s previous carjacking conviction serves
as a predicate offense under the ACCA.
B. Timeliness of Petitioner’s Motion
Petitioner seeks relief under Johnson, but its holding does not affect Petitioner’s sentence. As explained
above, Petitioner was sentenced under the ACCA
based on two (2) “serious drug offenses” and one (1)
violent felony conviction. Because Petitioner was not
sentenced under the residual clause at issue in Johnson, the Supreme Court’s holding in Johnson does not
change
Petitioner’s status. Therefore, Petitioner cannot
assert the new right recognized in Johnson, ultimately making his motion untimely under 28 U.S.C.
§ 2255(f).5
Petitioner’s claim cannot fall under the auspices of 28 U.S.C.
§ 2255(f)(3), thus the one-year time period after Johnson in
which to file his Motion is not applicable. See United States v.
Brown, 868 F.3d 297, 304 (4th Cir. 2017) (“[The Fourth Circuit
is] compelled to affirm [the untimeliness of the petitioner’s motion regarding the residual clause of the mandatory Sentencing
Guidelines] because only the Supreme Court can recognize the
right which would render Petitioner’s motion timely under

5

34a
IV. CONCLUSION
For the reasons stated above, the court DENIES
Petitioner’s Motion to Vacate under 28 U.S.C. § 2255.
(ECF No. 176.) This ruling moots the Government’s
Motion for Summary Judgment. (ECF No. 186.)
Therefore, the court DENIES AS MOOT the Government’s Motion for Summary Judgment (ECF No. 186).
CERTIFICATE OF APPEALABILITY
The law governing certificates of appealability
provides that:
(c)(2) A certificate of appealability may
issue . . . only if the applicant has made
a substantial showing of the denial of a
constitutional right.
(c)(3) The certificate of appealability . . .
shall indicate which specific issue or issues satisfy the showing required by
paragraph (2).
28 U.S.C. § 2253(c). A prisoner satisfies this standard
by demonstrating that reasonable judges would find
this court’s assessment of his constitutional claims is
debatable or wrong and that any dispositive proce-

§ 2255(f)(3).”) Since Petitioner cannot assert the new right recognized in Johnson, Petitioner’s claim must be timely under another subsection of 28 U.S.C. § 2255(f). The only other subsection that would be applicable to Petitioner’s claim is 28 U.S.C.
§ 2255(f)(1). However, Petitioner’s Motion would be untimely
under this subsection because he pled guilty in 2011 and this
Motion was filed well beyond the one-year statute of limitations
set forth under 28 U.S.C. § 2255(f)(1).

35a
dural ruling by the district court is likewise debatable. See, e.g., Miller-El v. Cockrell, 537 U.S. 322, 336
(2003); Slack v. McDaniel, 529 U.S. 473, 484 (2000);
Rose v. Lee, 252 F.3d 676, 683 (4th Cir. 2001). In this
case, the legal standard for the issuance of a certificate of appealability has been met.
It is not a settled point of law that the South Carolina carjacking statute satisfies the physical force requirement in Gardner, and reasonable jurists could
find Petitioner’s constitutional claim debatable.
Because the court finds that Petitioner has made
a substantial showing of the denial of a constitutional
right and that reasonable jurists would find this
court’s assessment of Petitioner’s constitutional
claims to be debatable or erroneous, a certificate of
appealability is granted as to Petitioner’s claim that
carjacking is not a violent felony.
IT IS SO ORDERED.
J. Michelle Childs
United States District Judge
May 11, 2018
Columbia, South Carolina

36a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 12-4890
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
TRAVIS DEQUINCY CROFT,
Defendant-Appellant.
Appeal from the United States District Court
for the District of South Carolina, at Greenville
J. Michelle Childs, District Judge
(6:10-cr-01090-JMC-1)
Submitted: June 27, 2013
Decided: July 16, 2013
Before DUNCAN, AGEE, and WYNN, Circuit
Judges.
Affirmed by unpublished PER CURIAM opinion.
David W Plowden, Assistant Federal Public Defender,
Greenville, South Carolina, for Appellant. Elizabeth
Jean Howard, Assistant United States Attorney,
Greenville, South Carolina, for Appellee.

37a
PER CURIAM:
Travis Dequincy Croft appeals the 188-month sentence imposed following his guilty plea to distribution
of cocaine base, in violation of 21 U.S.C. § 841(a)(1),
(b)(1)(C) (2006), and being a felon in possession of a
firearm and aiding and abetting, in violation of 18
U.S.C. §§ 922(g), 924(a)(2), 924(e), 2 (2006). Counsel
filed a brief pursuant to Anders v. California, 386 U.S.
738 (1967), asserting that there are no meritorious issues for appeal but questioning whether Croft’s sentence is procedurally reasonable. Croft has filed a pro
se supplemental brief moving this court to hold his
appeal in abeyance pending the Supreme Court’s decision in Alleyne v. United States, No. 11-9335. Finding no error, we deny Croft’s motion and affirm the
district court’s judgment.
This court reviews a sentence for reasonableness,
applying an abuse of discretion standard. Gall v.
United States, 552 U.S. 38, 46 (2007). We first review
for significant procedural error, and if the sentence is
free from such error, we then consider substantive
reasonableness. Id. at 51. Procedural error includes
improperly calculating the Guidelines range, treating
the Guidelines range as mandatory, failing to consider the 18 U.S.C. § 3553(a) (2006) factors, and failing to adequately explain the selected sentence. Id.
To adequately explain the sentence, the district court
must make an “individualized assessment,” by applying the relevant § 3553(a) factors to the case’s specific
circumstances. United States v. Carter, 564 F.3d 325,
328 (4th Cir.2009). The individualized assessment
need not be elaborate or lengthy, but it must be adequate to allow meaningful appellate review. Id. at

38a
330. Substantive reasonableness is determined by
considering the totality of the circumstances, and if
the sentence is within the Guidelines range, this court
applies a presumption of reasonableness. United
States v. Strieper, 666 F.3d 288, 295 (4th Cir. 2012).
Our review of the record leads us to conclude that
the district court did not commit procedural error in
imposing Croft’s sentence. The court properly calculated Croft’s Guidelines la range, treated the range as
advisory, considered the § 3553(a) factors, and provided an adequate individualized assessment. We
further conclude that Croft’s sentence is substantively reasonable, as he presents no evidence to rebut
the presumption of reasonableness. We therefore affirm Croft’s sentence.
In his pro se brief, Croft challenges the increase of
his mandatory minimum sentence based on his status
as an armed career criminal, which itself was based
on the district court’s finding of Croft’s prior convictions by a preponderance of the evidence. Croft therefore moved this court to hold his appeal in abeyance
pending the Supreme Court’s decision in Alleyne. The
Supreme Court has now issued its opinion, holding
that any fact other than a prior conviction that increases a defendant’s mandatory minimum sentence
must be submitted to a jury and found beyond a reasonable doubt. Alleyne v. United States, No. 11-9335,
2013 WL 2922116, at *7 (June 17, 2013). In light of the
Supreme Court’s decision in Alleyne, we deny Croft’s
motion as moot. Moreover, because Alleyne did not
disturb Almendarez-Torres v. United States, 523 U.S.
224 (1998), which authorizes a district court to apply

39a
an enhanced sentence based upon its finding of applicable prior convictions, Croft’s challenge must fail.
Alleyne, 2013 WL 29922116 at *9 n.1.
In accordance with Anders, we have reviewed the
record in this case and have found no meritorious issues for appeal. The district court properly conducted
the plea hearing in accordance with Federal Rule of
Criminal Procedure 11 and ensured that Croft’s plea
was knowing and voluntary. We therefore deny
Croft’s motion to hold his appeal in abeyance, and affirm his conviction and sentence. This court requires
that counsel inform Croft, in writing, of his right to
petition the Supreme Court of the United States for
further review. If Croft requests that a petition be
filed, but counsel believes that such a petition would
be frivolous, counsel may move in this court for leave
to withdraw from representation. Counsel’s motion
must state that a copy thereof was served on Croft.
We dispense with oral argument because the facts
and legal contentions are adequately presented in the
materials before this court and argument would not
aid the decisional process.
AFFIRMED.

40a
APPENDIX F
FILED: March 29, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-6627
(6:10-cr-01090-JMC-1)
(6:16-cv-00064-JMC)
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
TRAVIS DEQUINCY CROFT,
Defendant-Appellant.
ORDER
The petition for rehearing en banc was circulated
to the full court. No judge requested a poll under Fed.
R. App. P. 35. The court denies the petition for rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

41a
APPENDIX G
Docket No. 2003-GS-23005945
The State of South Carolina
County of Greenville
COURT OF GENERAL SESSIONS
AUGUST TERM 2003
THE STATE
vs.
TRAVIS DEQUINCY CROFT
Indictment for
2599
CARJACKING
VIOLATION § 16-3-1075
WITNESSES
M.D. NELSON
GPD
03/01/03
ARREST WARRANT NUMBER
H-342699
ACTION OF GRAND JURY
TRUE BILL
/s/ FOREMAN GRAND JURY

42a
STATE OF SOUTH
CAROLINA
COUNTY OF GREENVILLE

INDICTMENT FOR
CARJACKING

At a Court of General Sessions, convened on August 19, 2003 the Grand Jurors of Greenville County
present upon their oath:
That TRAVIS DEQUINCY CROFT did in Greenville
County, on or about the 1st day of March, 2003, take
or attempt to take a motor vehicle, to wit: a 1988
Chevrolet from Tanesha Wilson by force, and violence
or intimidation while, Tanesha Wilson, was operating
and/or in the said vehicle. This is in violation of §163-1075 of the South Carolina Code of Laws (1976) as
amended.
Against the peace and dignity of the State, and
contrary to the statute in such case made and provided.
/s/ SOLICITOR

43a
STATE OF SOUTH CAROLINA

IN THE COURT OF GENERAL SESSIONS

COUNTY OF GREENVILLE

INDICTMENT/CASE#:
2003GS2305945

VS.

A/W#: H342699

CROFT, TRAVIS
DEQUINCY

Date of Offense:
03-01-2003

AKA: ______
Race: B Sex: M Age: 22

S.C. Code §
16-03-1075(B)(1)

Address:
25 CODY STREET
GREENVILLE, SC
29609

□ CASE RESTORED
SENTENCE
■ PLEA □ TRIAL

CDR Code #: 2599

DL#: ____ SID#: _____
In disposition of the said indictment comes now the
Defendant who was
□ CONVICTED OF or ■ PLEADS
TO: CARJACKING
in violation of § 16-03-1075(B)(1) of the S.C. Code of
Laws, bearing CDR Code # 2599
■ NON-VIOLENT □ VIOLENT □ SERIOUS □ MOST
SERIOUS □ 17-25-45
The charge is: ■ As Indicted, □ Lesser Included Offense, □ Defendant Waives Presentment to Grand
Jury.

44a
The plea is ■ Without Negotiations or Recommendation, □ Negotiated Sentence, □ Recommendation
by the State.
ATTEST:
/s/ Solicitor /s/ Defendant /s/ Attorney for Defendant
WHEREFORE, the Defendant is committed to the
■ State Department of Corrections, □ County
Detention Center, for a determinate term of 30
days/months/years or □ under the Youthful Offender Act not to exceed __ years and/or to pay a fine
of $__: provided that upon the service of __
days/months/years and/or payment of $__; plus costs
and assessments as applicable*; the balance is suspended with probation for __ months/years and subject to South Carolina Department of Probation, Parole and Pardon Services standard conditions of probation, which are incorporated by reference.
■ CONCURRENT or □ CONSECUTIVE to sentence
on: to present incarnation
The Defendant is to be given credit for time served
pursuant to S.C. Code § 24-13-40 to be calculated and
applied by the State Department of Corrections.
SPECIAL CONDITIONS:
□ RESTITUTION: □ Heard, □ Waived, □ Ordered
Total: $__ plus 20% fee: $__
Payment Terms: ___
□ set by SCDPPPS ___
Recipient: ___
*Fine:
$___

45a
§ 14-1-206 (Assessments 107.5%)
§ 14-1-211(A)(1) (Conv Surcharge)
§ 14-1-211(A)(2) (DUI Surcharg
§ 56-5-2995 (DUI Assessment)
§ 35.13 (Public Def/Prob)
§ 73.3, 1B TP (Law enforce. Funding)
§ 33.7, 1B TP (Drug Court Surcharge)
§ 50-21-114 (BUI Breath Test Fee)
§ 56-5-2942(J) (Vehicle Assessment)
3% to County (if paid in installments)
TOTAL

$
$100 $100
$100 $
$12 $
$500 $
$25 $25
$100 $
$50 $
$40/ea$
$
$

PTUP
days/hours Public Service Employment
Obtain GED
Attend Voc. Rehab. or Job Corp.
May serve W/E beginning
Substance Abuse Counseling
Random Drug/Alcohol testing
Fine may be pd. in equal, consecutive
weekly/monthly pmts. of $
beginning
$
paid to Public Defender Fund
Other:
Appointed PD or appointed other counsel, 35.13 TP
Requires $500 be paid to Clerk during probation.
/s/ Clerk of the Court/Deputy Clerk
Court Reporter:

/s/

PRESIDING JUDGE
Judge Code: 2/1/3/2
Sentence Date: 9/4/03

/s/

46a
APPENDIX H
IN THE DISTRICT COURT OF THE
UNITED STATES FOR THE DISTRICT OF
SOUTH CAROLINA GREENVILLE DIVISION
UNITED STATES OF
AMERICA
vs.

TRAVIS DEQUINCY
CROFT MARCUS JERRELL SEARLES

)
)
)
)
)
)
)
)
)
)
)

CR. NO. 6:10 1090
18 U.S.C. § 922(g)(1)
18 U.S.C. § 924(a)(2)
18 U.S.C. § 24(c)(1)(A)
18 U.S.C. § 924(e)
18 U.S.C. § 2
21 U.S.C. § 841(a)(1)
21 U.S.C. § 41(b)(1)(C)
21 U.S.C. § 41(b)(1)(D)
INDICTMENT

COUNT 1
THE GRAND JURY CHARGES
That on or about March 3, 2010, in the District of
South
Carolina,
the
Defendant,
TRAVIS
DEQUINCY CROFT, knowingly, intentionally and
unlawfully did distribute a quantity of cocaine base
(commonly known as “crack” cocaine), a Schedule II
controlled substance;
In violation of Title 21, United States Code, Sections 841(a)(1) and 841(b)(1)(C).
COUNT 2
THE GRAND JURY FURTHER CHARGES:
That on or about March 10, 2010, in the District of
South
Carolina,
the
Defendants,
TRAVIS

47a
DEQUINCY CROFT and MARCUS JERRELL
SEARLES, knowingly, intentionally and unlawfully
did possess with intent to distribute a quantity of marijuana, a Schedule I controlled substance, and did aid
and abet each other in the commission of the aforesaid
offense;
In violation of Title 21, United States Code, Sections 841(a)(1) and 841(b)(1)(D), and Title 18, United
States Code, Section 2.
COUNT 3
THE GRAND JURY FURTHER CHARGES:
That on or about March 10, 2010, in the District of
South
Carolina,
the
Defendants,
TRAVIS
DEQUINCY CROFT and MARCUS JERRELL
SEARLES, each having been convicted of a crime
punishable by imprisonment for a term exceeding one
year, knowingly did possess in and affecting commerce, firearms and ammunition, all of which had
been shipped and transported in interstate and foreign commerce, and did aid and abet each other in the
commission of the aforesaid offense;
In violation of Title 18, United States Code, Sections 922(g)(1), 924(a)(2), 924(e), and 2.
COUNT 4
THE GRAND JURY FURTHER CHARGES:
That on or about March 10, 2010, in the District of
South
Carolina,
the
Defendants,
TRAVIS
DEQUINCY CROFT and MARCUS JERRELL
SEARLES, knowingly used and carried firearms during and in relation to, and possessed the firearms in

48a
furtherance of a drug trafficking crime, which is prosecutable in a court of the United States, and did aid
and abet each other in the commission of the aforesaid
offense;
In violation of Title 18, United States Code, Sections 924(c)(1)(A) and 2.
A TRUE Bill
REDACTED
Foreperson
REDACTED
WILLIAM N. NETTLES (EJH/twd)
UNITED STATES ATTORNEY

49a
APPENDIX I
IN THE DISTRICT COURT OF THE
UNITED STATES FOR THE DISTRICT OF
SOUTH CAROLINA GREENVILLE DIVISION
UNITED STATES OF
AMERICA
V.
TRAVIS DEQUINCY
CROFT

)
)
)
)
)
)
)

Criminal No: 6:10-1090
PLEA AGREEMENT

General Provisions
This PLEA AGREEMENT is made this 22nd day of
February, 2011,between, the United States of America as represented by United States Attorney WILLIAM N. NETTLES, Assistant United States Attorney E. Jean Howard; the Defendant, TRAVIS
DEQUINCY CROFT and Defendant’s Attorney, David W. Plowden, Esquire.
IN CONSIDERATION of the mutual promises
made herein, the parties hereto agree as follows:
1.

The Defendant, TRAVIS
DEQUINCY
CROFT, agrees to plead guilty to counts 1 and
3 of an Indictment charging violations of Title
21, United States Code, §841(a)(1) and Title 18,
§922(g)(1)

2.

The Defendant agrees to provide detailed financial information to the United States Probation Office prior to sentencing. The Defendant understands and agrees that monetary

50a
penalties [i.e., special assessments, restitution,
fines and other payments required under the
sentence] imposed by the Court are due immediately and subject to enforcement by the
United States as civil judgements, pursuant to
18 U.S.C. § 3613. The Defendant also understands that payments made in accordance with
installment schedules set by the Court are minimum payments only and do not preclude the
government from seeking to enforce the judgment against other assets of the defendant at
any time, as provided in 18 U.S.C. §§ 3612,
3613 and 3664(m).
The Defendant further agrees to enter into the Bureau of Prisons Inmate Financial Responsibility Program if sentenced to a term of incarceration with an
unsatisfied monetary penalty. The Defendant further
understands that any monetary penalty imposed is
not dischargeable in bankruptcy.
(A)

Special Assessment: Pursuant to 18 U.S.C.
§ 3013, the Defendant must pay a special
assessment of $100.00 for each felony count
for which he is convicted. This special assessment must be paid at or before the time
of the guilty plea hearing.

(B)

Restitution: The Defendant agrees to make
full restitution under 18 U.S.C. § 3556 in an
amount in an amount to be determined by
the court at the time of sentencing, which
amount is not limited to the count(s) to
which the Defendant pled guilty, but will include restitution to each and every identifiable victim who may have been harmed by

51a
his scheme or pattern criminal activity, pursuant to 18 U.S.C. § 3663. The Defendant
agrees to cooperate fully with the government in identifying all victims.
(C)

3.

Fines: The Defendant understands that the
Court may impose a fine pursuant to 18
U.S.C. §§ 3571 and 3572.
The Defendant understands that the matter of
sentencing is within the sole discretion of the
Court and that the sentence applicable to Defendant’s case will be imposed after the Court
considers as advisory the United States Sentencing Commission Guidelines, Application
Notes and Policy Statements, as well as the factors set forth in Title 18, United States Code,
Section 3553(a). The Defendant also understands that Defendant’s sentence has not yet
been determined by the court, and that any estimate of a probable sentencing range Defendant may have received from Defendant’s attorney, the Government or the United States Probation Office is only a prediction, not a promise,
and is not binding on the Government, the Probation Office or the Court. The Defendant further understands that the Government retains
the right to inform the Court of any relevant
facts, to address the Court with respect to the
nature of the offense, to respond to questions
raised by the Court, to correct any inaccuracies
or inadequacies in the presentence report, to
respond to any statements made to the Court
by or on behalf of the Defendant and to summa-

52a
rize all evidence which would have been presented at trial establish a factual basis for the
plea.
4.

The Defendant agrees that all facts that determine his offense level under the Guidelines and
pursuant to any mandatory minimum (including facts that support any specific offense characteristic or other enhancement or adjustment)
can be found by the court at sentencing by a
preponderance of the evidence standard and
the court may consider any reliable evidence,
including hearsay. By executing this Agreement, the Defendant understands that he
waives any argument that facts that determine
his offense level under the Guidelines and pursuant to any mandatory minimum should be alleged in an indictment and found by a jury beyond a reasonable doubt.

5.

The defendant understands that the obligations of the Government within the Plea Agreement are expressly contingent upon the Defendant’s abiding by federal and state laws and
complying with the terms and conditions of any
bond executed in this case.

6.

In the event that the Defendant fails to comply
with any of the provisions of this Agreement,
either expressed or implied, it is understood
that the Government will have the right, at its
sole election, to void all of its obligations under
this Agreement and the Defendant will not
have any right to withdraw his plea of guilty to
the offense(s) enumerated herein.

53a
Cooperation and Forfeiture
7.

The Defendant agrees to be fully truthful and
forthright with federal, state and local law enforcement agencies by providing full, complete
and truthful information about all criminal activities about which he has knowledge. The Defendant must provide full, complete and truthful debriefings about these unlawful activities
and must fully disclose and provide truthful information to the Government including any
books, papers, or documents or any other items
evidentiary value to the investigation. The Defendant must also testify fully and truthfully
before any grand juries and at any trials or
other proceedings if called upon to do so by the
Government, subject to prosecution for perjury
for not testifying truthfully. The failure of the
Defendant to be fully truful and forthright at
any stage will, at the sole election of the Government, cause the obligations of the Government within this Agreement to become null
and void. Further, it is expressly agreed that if
the obligations of the Government within this
Agreement become null and void due to the
lack of truthfulness on the part of the Defendant, the Defendant understands that:
(A)
the Defendant will not be permitted to
withdraw his plea of guilty to the offenses described above;
(B)
all additional charges known to the Government may be filed in the appropriate district;

54a
(C)
the Government will argue for a maximum sentence for the offense to which the Defendant has pleaded guilty; and
(D)
the Government will use any and all information and testimony provided by the Defendant in the prosecution of the Defendant of
all charges.
8.

The Defendant agrees to submit to such polygraph examinations as may be requested by
the Government and agrees that any such examinations shall be performed by a polygraph
examiner selected by the Government. Defendant further agrees that his refusal to take or
his failure to pass any such polygraph examination to the Government’s satisfaction will result, at the Government’s sole discretion, in the
obligations of the Government within the
Agreement becoming null and void.

9.

Provided the Defendant cooperates and otherwise compiles with all the conditions of this
Plea Agreement, and the Defendant’s cooperation is deemed by the Government as providing
substantial assistance in the investigation or
prosecution of another person, the United
States agrees to move to dismiss the remaining
counts of the Indictment at sentencing. The Defendant understands that the dismissal of the
remaining counts would be in lieu of a motion
for downward departure pursuant to Section
5K1.1. of the U.S.S.G.. The Defendant understands that the Court may consider these dismissed counts as relevant conduct pursuant at

55a
§1B1.3 of the United States Sentencing Guidelines.
10.

The Defendant agrees to voluntarily surrender
to, and not to contest the forfeiture by, the
United States of America of any and all assets
and property, or portions thereof, owned or
purchased by the Defendant which are subject
to the forfeiture pursuant to any provision of
law and which are in the possession or control
of the Defendant or Defendant’s nominees. The
Defendant further agrees to prevent the disbursement, relocation or encumbrance of any
such assets and agrees to fully asset the government in the recovery and return to the
United States of any assets, or portions thereof,
as described above, where located. The Defendant further agrees to make a full and completed
disclosure of all assets over which Defendant
exercises control and those which are held or
controlled by nominees. The Defendant further
agrees to submit to a polygraph examination on
the issue of assets if it is deemed necessary by
the United States.

The Defendant agrees to forfeit all interests in the
properties as described above and to take whatever
steps are necessary to pass clear title to the United
States. These steps include, but are not limited to, the
surrender of title and the signing of any other documents necessary to effectuate such transfers. The Defendant agrees not to object to any civil forfeiture proceedings brought against these properties pursuant to
any provision of law and the Defendant further understands that any such civil proceedings may

56a
properly be brought at any time before or after acceptance of Defendant’s guilty plea in this matter and
agrees to waive any double jeopardy claims he may
have as a result of the forfeiture of these properties as
provided for by this Agreement.
Merger and Other Provisions
11.

The parties agree that if the Court determines
the Defendant has readily demonstrated acceptance of responsibility for his offenses, that
USSG § 3E1.1(a) applied, thereby providing for
a decrease of two (2) levels. In addition, if the
Defendant qualifies for a decrease under §
3E1.1(a), the Government will move that he receive the one level decrease set forth in
3E1.1(b), and requests that this provision be
considered at that request.

12.

The Defendant represents to the court that he
has met with his attorney on a sufficient number of occasions and for a sufficient period of
time to discuss the Defendant’ case and receive
advice; that the Defendant has been truthful
with his attorney and related all information of
which the Defendant is aware pertaining to the
case; that the Defendant and his attorney have
discussed possible defenses, if any, to the
charges in the Indictment including the existence of any exculpatory or favorable evidence
or witness, discussed the Defendant’s right to a
public trial by jury or by the Court, the right to
the assistance of counsel throughout the processing, the right to confront and cross-examine the government’s witnesses, the Defend-

57a
ant’s right to testify in his own behalf, or to remain silent and have no adverse inferences
drawn from his silence; and that the Defendant, with the advice of counsel, has weighed the
relative benefits of a trial by jury or by the
Court versus a plea of guilty pursuant to his
Agreement, and has entered this Agreement as
a matter of the Defendant’s free and voluntary
choice, and not as a result of pressure or intimidation by any person.
13.

The Defendant is aware that 18 U.S.C. § 3742
and 28 U.S.C. § 2255 afford every defendant
certain rights to contest a conviction and/or
sentence. Acknowledging those rights, the Defendant, in exchange for the concessions made
by the Government in this Plea Agreement,
waives the right to contest either the conviction
or the sentence in any direct appeal or other
post-conviction action, including any proceedings under 28 U.S.C. § 2255. This waiver does
not apply to claims of ineffective assistance of
counsel or prosecutorial misconduct. This
Agreement does not affect the rights or obligations of the Government as set forth in 18
U.S.C. § 3742(b). Nor does it limit the Government in its comments or responses to any postsentencing matters.

14.

The Defendant waives all rights, whether asserted directly or by a representative, to request or receive from any department or agency
of the United States any records pertaining to
the investigation or prosecution of this case including without limitation any records that

58a
may be sought under the Freedom of Information Act, 5 U.S.C. § 552, or the Privacy Act
of 1974, 5 U.S.C. § 552a.
15.

The parties hereby agree that this Plea Agreement contains the entire agreement of the parties; that this Agreement supersedes all prior
promises, representations and statements of
the parties; that this Agreement shall not be
binding on any party until the Defendant tenders a plea of guilty to the court having jurisdiction over this matter; that this Agreement
may be modified only in writing signed by all
parties; and that any and all other promises,
representations and statements, whether
made prior to, contemporaneous with or after
this Agreement, are null and void.
2 22 11
DATE

/s/
TRAVIS DEQUINCY CROFT, Defendant

2/22/11
DATE

/s/
David W. Plowden
Attorney for the Defendant

2-22-11
DATE

WILLIAM N. NETTLES
UNITED STATES ATTORNEY
By:/s/
E. Jean Howard
Assistant U.S. Attorney

59a
APPENDIX J
United States District Court
District of South Carolina
UNITED STATES OF
AMERICA

JUDGMENT IN A CRIMINAL CASE

vs.

Case Number: 6:10-1090 (1)

TRAVIS DEQUINCY
CROFT

USM Number: 22126-171
David Plowden, AFPD
Defendant’s Attorney

The Defendant:
■ pleaded guilty to count(s) 1 and 3.
The defendant is adjudicated guilty of these offenses:
Title & Section
21:841(a)(1),
(b)(1)(C)
18:922(g)(1),
924(a)(2) and
924(e)

Nature of Offense Offense Ended
Please see indictment November 8, 2010

Count
1

Please see indictment November 9, 2010

3

The defendant is sentenced as provided in pages 2
through 5 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
■ Counts 2 and 4 are dismissed on the motion of the
United States.
It is ordered that the defendant must notify the
United States Attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution, the defendant must notify
the court and United States attorney of any material
changes in economic circumstances.

60a
June 2, 2011
Date of Imposition of
Judgement
/s/
Signature of Judge
J. Michelle Childs, United
States District Judge
Name and Title of Judge
6-6-11
Date
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a total term of one hundred eighty-eight (188)
months. This term shall consist of 188 months as to
Counts 1 and 3 to be served concurrently.
■ The defendant is remanded to the custody of the
United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of five (5)
years. This term consists of three (3) years as to Count
1 and five (5) years as to Count 3.
The defendant shall participate in a program of
testing and treatment for substance abuse as directed
by the probation officer, until released from the program by the officer.
The defendant must report to the probation office
in the district to which the defendant is released

61a
within 72 hours of release from the custody of the Bureau of Prisons.
The defendant shall not commit another federal,
state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from
any unlawful use of a controlled substance. The defendant shall submit to one drug test within 15 days
of release from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
■ The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous
weapon.
■ The defendant shall cooperate in the collection
of DNA as directed by the probation officer.
If this judgment imposes a fine or restitution, it is
a condition of supervised release that the defendant
pay in accordance with the Schedule of Payments
sheet of this judgment.
The defendant must comply with the standard
conditions that have been adopted by this court as
well as any additional conditions on the attached
page.
STANDARD CONDITIONS OF SUPERVISION
1) the defendant shall not leave the judicial district
without the permission of the court or probation officer;
2) the defendant shall report to the probation officer
in a manner and frequency directed by the court or
probation officer.

62a
3) the defendant shall answer truthfully all inquiries
by the probation officer and follow the instructions of
the probation officer;
4) the defendant shall support his or her dependents
and meet other family responsibilities;
5) the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for
schooling, training, or other acceptable reasons;
6) the defendant shall notify the probation officer at
least ten days prior to any change in residence or employment;
7) the defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use, distribute, or administer any controlled substance or any
paraphernalia related to any controlled substances,
except as prescribed by a physician;
8) the defendant shall not frequent places where controlled substances are illegally sold, used, distributed,
or administered;
9) the defendant shall not associate with any persons
engaged in criminal activity and shall not associate
with any person convicted of a felony, unless granted
permission to do so by the probation officer;
10) the defendant shall permit a probation officer to
visit him or her at any time at home or elsewhere and
shall permit confiscation of any contraband observed
in plain view by the probation officer;
11) the defendant shall notify the probation officer
within seventy-two hours of being arrested or questioned by a law enforcement officer;

63a
12) the defendant shall not enter into any agreement
to act as an informer or a special agent of a law enforcement agency without the permission of the court;
and
13) as directed by the probation officer, the defendant
shall notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics and shall permit the probation officer to make such notifications and to confirm
the defendant's compliance with such notification requirement.
CRIMINAL MONETARY PENALTIES
The defendant shall pay the total criminal monetary penalties under the schedule of payments on
Sheet 5.
Assessment

$200.00

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay,
payment of the total criminal monetary penalties is
due as follows:
■ Lump sum payment of $200.00 special assessment due immediately, balance due
Unless the court has expressly ordered otherwise,
if this judgment imposes imprisonment, payment of
criminal monetary penalties is due during imprisonment. All criminal monetary penalties, except those
payments made through the Federal Bureau of Prisons' Inmate Financial Responsibility Program, are
made to the clerk of court.

64a
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.

65a
APPENDIX K
United States District Court
District of South Carolina
UNITED STATES OF
AMERICA
vs.

AMENDED JUDGMENT IN A CRIMINAL
CASE

TRAVIS DEQUINCY
CROFT
Case Number: 6:101090 (1)

USM Number: 22126171

Date of Original
Judgment: June 8,
2011

David Plowden, AFPD
Defendant’s Attorney

Reason for Amendment:
■ Correction of Sentence on Remands (18 U.S.C.
3742(f)(1) and (2))
The Defendant:
■ Pleaded guilty to Count(s) 1 and 3 on February 22,
2012.
The defendant is adjudicated guilty of these offenses:
Title & Section
21:841(a)(1),
(b)(1)(C)
18:922(g)(1),
924(a)(2) and
924(e)

Nature of Offense Offense Ended
Count
Please see indictment Please see indictment 1
Please see indictment Please see indictment 3

The defendant is sentenced as provided in pages 2
through 5 of this judgment. The sentence is imposed

66a
pursuant to the Sentencing Reform Act of 1984.
■ Counts 2 and 4 are dismissed on the motion of the
United States.
It is ordered that the defendant must notify the
United States Attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution, the defendant must notify
the court and United States attorney of any material
changes in economic circumstances.
October 9, 2012
Date of Imposition of
Judgement
/s/
Signature of Judge
J. Michelle Childs, United
States District Judge
Name and Title of Judge
October 12, 2012
Date
IMPRISONMENT
The defendant is hereby committed to the custody
of the United States Bureau of Prisons to be imprisoned for a total term of one hundred eighty eight (188)
months. This term shall consist of 188 months as to
Counts 1 and 3 to be served concurrently.
■ The defendant is remanded to the custody of the
United States Marshal.

67a
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of five (5)
years. This term consists of three (3) years as to Count
1 and five (5) years as to Count 3.
The defendant shall participate in a program of
testing and treatment for substance abuse as directed
by the probation officer, until released from the program by the officer.
The defendant must report to the probation office
in the district to which the defendant is released
within 72 hours of release from the custody of the Bureau of Prisons.
The defendant shall not commit another federal,
state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from
any unlawful use of a controlled substance. The defendant shall submit to one drug test within 15 days
of release from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
■ The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous
weapon.
■ The defendant shall cooperate in the collection
of DNA as directed by the probation officer.
If this judgment imposes a fine or restitution, it is
a condition of supervised release that the defendant
pay in accordance with the Schedule of Payments
sheet of this judgment.

68a
The defendant must comply with the standard
conditions that have been adopted by this court as
well as any additional conditions on the attached
page.
STANDARD CONDITIONS OF SUPERVISION
1) the defendant shall not leave the judicial district
without the permission of the court or probation officer;
2) the defendant shall report to the probation officer
in a manner and frequency directed by the court or
probation officer.
3) the defendant shall answer truthfully all inquiries
by the probation officer and follow the instructions of
the probation officer;
4) the defendant shall support his or her dependents
and meet other family responsibilities;
5) the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for
schooling, training, or other acceptable reasons;
6) the defendant shall notify the probation officer at
least ten days prior to any change in residence or employment;
7) the defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use, distribute, or administer any controlled substance or any
paraphernalia related to any controlled substances,
except as prescribed by a physician;
8) the defendant shall not frequent places where controlled substances are illegally sold, used, distributed,
or administered;

69a
9) the defendant shall not associate with any persons
engaged in criminal activity and shall not associate
with any person convicted of a felony, unless granted
permission to do so by the probation officer;
10) the defendant shall permit a probation officer to
visit him or her at any time at home or elsewhere and
shall permit confiscation of any contraband observed
in plain view by the probation officer;
11) the defendant shall notify the probation officer
within seventy-two hours of being arrested or questioned by a law enforcement officer;
12) the defendant shall not enter into any agreement
to act as an informer or a special agent of a law enforcement agency without the permission of the court;
and
13) as directed by the probation officer, the defendant
shall notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics and shall permit the probation officer to make such notifications and to confirm
the defendant's compliance with such notification requirement.
CRIMINAL MONETARY PENALTIES
The defendant shall pay the total criminal monetary penalties under the schedule of payments on
Sheet 5.
Assessment

$200.00

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay,

70a
payment of the total criminal monetary penalties is
due as follows:
■ Lump sum payment of $200.00 special assessment due immediately, balance due
Unless the court has expressly ordered otherwise,
if this judgment imposes imprisonment, payment of
criminal monetary penalties is due during imprisonment. All criminal monetary penalties, except those
payments made through the Federal Bureau of Prisons' Inmate Financial Responsibility Program, are
made to the clerk of court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.

71a
APPENDIX L
RELEVANT STATUTORY PROVISIONS
18 U.S.C. § 924(e)(2)(B)(i)
(e)

...
(2) As used in this subsection—
...
(B) the term “violent felony” means any crime
punishable by imprisonment for a term exceeding one year, or any act of juvenile delinquency
involving the use or carrying of a firearm,
knife, or destructive device that would be punishable by imprisonment for such term if committed by an adult, that—
(i) has as an element the use, attempted
use, or threatened use of physical force
against the person of another . . .

S.C. Code § 16-3-1075
(A) For purposes of this section, “great bodily injury”
means bodily injury which creates a substantial risk
of death or which causes serious, permanent disfigurement, or protracted loss or impairment of the function of any bodily member or organ.
(B) A person is guilty of the felony of carjacking who
takes, or attempts to take, a motor vehicle from another person by force and violence or by intimidation

72a
while the person is operating the vehicle or while the
person is in the vehicle. Upon conviction for this offense, a person must:
(1) be imprisoned not more than twenty years; or
(2) if great bodily injury results, be imprisoned not
more than thirty years.

